June 18, 2010

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER & EXECUTIVE VICE PRESIDENT

SUBJECT: Management Advisory Report – Civil Service Retirement System
         Overpayment by the Postal Service (Report Number CI-MA-10-001)

This report presents the results of our review of the Civil Service Retirement System
(CSRS) Overpayment by the U.S. Postal Service (Project Number 10YO036CI000).
This report discusses the $75 billion CSRS overpayment by the Postal Service in fiscal
years (FY) 1972 through 2009. The objective of this review was to assess the facts
concerning this overpayment and identify any possible solution(s) to correct the
overpayment to the benefit of the Postal Service. This review addresses financial risk.
See Appendix A for additional information about this review.

On May 5, 2010, the U.S. Postal Service Office of Inspector General (OIG) entered, for
the record, the attached Congressional testimony with the U.S. Congress in addition to
the oral testimony previously given by the Postal Service’s Inspector General (IG)
before Congress on April 15 and 22, 2010. 1 The attached testimony (See Appendix B)
explains, in detail, the Postal Service’s $75 billion overpayment to the CSRS and three
possible solutions to correct the overpayment contained in the IG’s written testimony of
May 5, 2010. (See Appendix B pages 13 – 16)

Conclusion

The Postal Service pension fund is not made up of tax dollars. The two funding streams
are the employees’ own money and money collected from postage sales, with inflated
prices as a result of the $75 billion overpayment. See Appendix C for OIG’s detailed
monetary impact calculation. The return of the overpayment or a combination of actions
to realize the benefit of the $75 billion overpayment to the Postal Service would fully
fund the pension and health retiree plans. The Postal Service’s more than $7 billion
annual payments for retiree health care prefunding and retiree health care premiums
would no




1
  The April 15, 2010, Hearing before the Committee on Oversight and Government reform and the Subcommittee on
the Federal Workforce, Postal Service, and the District of Columbia House of Representatives and the April 22, 2010,
Hearing before the Senate Homeland Security and Governmental Affairs Committee’s Subcommittee on the Federal
Financial Management, Government Information, Federal Services, and International Security.
Civil Service Retirement System                                         CI-MA-10-001
 Overpayment by the Postal Service




longer be needed, because the pension and health retiree plans would be fully funded
and interest income from the fully funded retiree health benefit fund could pay annual
premiums. (See Appendix D for details.)

CSRS Overpayment

In July 1971, when the Post Office Department became the Postal Service, employees
that belonged to the federal pension fund began contributing to the Postal Service’s
portion of the pension fund. These retirement costs were divided according to the
number of years employees had belonged to each fund. However, the federal pension
fund paid for retirements was based on 1971 salaries, not final salaries as administered
by the Office of Personnel Management (OPM).

OPM has explained that these mischarges were in response to what they believed to be
the will of Congress expressed in 1974 legislation. However, the 1974 language was
repealed by Congress in 2003. Congress directed OPM to use its authority to oversee
the reforms using accepted “dynamic assumptions” that include pay increases and
inflation. OPM switched to dynamic funding for the Postal Service portion, but did not for
their share. The Postal Service paid the $75 billion difference.

In 2004, the Postal Service appealed the OPM’s methodology for pension fund
allocation and the appeal was denied by the OPM. The denial relied on 1974 legislation
that made the Postal Service responsible for the pension costs related to salary
increases. However, the 1974 language was repealed by Congress.

In addition, the OPM directed the Postal Service to use 100 percent pre-funding for both
pension and health care retirement funds. In contrast the OPM has pension funding
levels of 41 percent for federal employees and 24 percent for the military. The OPM’s
own retiree health care prefunding for federal employees is 0 percent. The Standard &
Poor’s 500 companies’ pension funding is 80 percent.

Correcting either the $75 billion overcharge or reducing the 100 percent target pre-
funding level to 80 percent would result in the ability of the Postal Service to pay off the
Treasury debt associated with paying the $75 billion overcharge. Accordingly, the
annual costs and premiums for the health care liability could be financed out of the
interest earnings and surplus. Another option for the Postal Service could be to use the
$75 billion overcharge to pledge to the retiree health fund instead of making annual
payments. This could be done with the agreement of the OPM and the U.S. Treasury.
The details concerning each of the three possible solutions can be found in the
appendix of the attached Congressional testimony. (See Appendix B pages 13 – 16)




                                              2
Civil Service Retirement System                                     CI-MA-10-001
 Overpayment by the Postal Service




We recommend the Chief Financial Officer & Executive Vice President:

1. Pursue all necessary actions, including those suggested by the Office of Inspector
   General, to either secure the return of the $75 billion overpayment or to otherwise
   realize the benefit of this overpayment to the Postal Service.

Management’s Comments

Postal Service management agrees with the OIG’s finding that the Postal Service has
overfunded its CSRS payments by $75 billion. In addition, they agree with the OIG’s
recommendation, the monetary impact to the Postal Service, and are pursing various
options identified by the OIG to obtain a more equitable CSRS valuation and access to
any resulting funds. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information please contact Michael Thompson, director,
Capital Investments, or me at 703-248-2100.


         E-Signed by Office of Inspector General
           VERIFY authenticity with ApproveIt


for
Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
Mary Anne Gibbons
Sally K. Haring




                                                   3
Civil Service Retirement System                                                         CI-MA-10-001
 Overpayment by the Postal Service




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In 2003, Congress directed the OPM to use its authority to oversee the reforms using
accepted “dynamic assumptions” that include pay increases and inflation. This is the
same methodology the OPM currently uses with its other funds including the cost of
retiree health care premiums for the Postal Service.

The OPM switched to dynamic funding for the Postal Service portion, but did not for the
OPM share. As a result, the Postal Service was overcharged $75 billion for its share of
the CSRS pension payments. In essence, for almost 40 years the Postal Service paid
all of its and all of the federal government’s share of inflationary costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review was to assess the facts concerning the $75 billion
overpayment and identify any possible solution(s) to correct the overpayment to the
benefit of the Postal Service.

To accomplish this objective we relied on the oral testimony previously given by the
Postal Service’s IG before Congress on April 15 and 22, 2010, and the written OIG
Congressional testimony submitted to the Congress on May 5, 2010. We also relied on
the supporting documentation that was used to develop and support the above
mentioned testimonies.

We conducted this review from February through June 2010 in accordance with the
Quality Standards for Inspections.2 We discussed our observations and conclusions
with management officials on June 11, 2010, and included their comments where
appropriate.

We did not rely on computer-generated data to support the opinions and conclusions
presented in this report.




2
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                        4
     Civil Service Retirement System                                           CI-MA-10-001
      Overpayment by the Postal Service




     PRIOR OIG COVERAGE

                          Report            Final Report      Monetary
    Report Title          Number                Date           Impact                Report Results
The Postal Service's     RARC-WP-         January 20, 2010       N/A         The paper demonstrated
Share of CSRS             10-001                                             that the current system of
Pension                                                                      funding the Postal Service's
Responsibility                                                               CSRS pension responsibility
                                                                             is inequitable and has
                                                                             resulted in the Postal
                                                                             Service overpaying $75
                                                                             billion to the pension fund.
Estimates of Postal       ESS-MA-          July 22, 2009     $5.95 billion   The Management Advisory
Service Liability for     09-001(R)                                          report demonstrated based
Retiree Health Care                                                          on OPM’s assumptions and
Benefits                                                                     methodology, the Postal
                                                                             Service could overfund its
                                                                             retiree health care liability by
                                                                             $13.2 billion by the end of
                                                                             FY 2016.




                                                      5
Civil Service Retirement System                              CI-MA-10-001
 Overpayment by the Postal Service



                                     APPENDIX B: TESTIMONY




      Hearing before the Committee on Oversight and Government
       Reform and the Subcommittee on the Federal Workforce,
              Postal Service, and the District of Columbia
                United States House of Representatives




                            Written Statement
                                    On
      Continuing to Deliver: An Examination of the Postal Service’s
             Current Financial Crisis and its Future Viability


                                         April 15, 2010



                                   David C. Williams
                                   Inspector General
                              United States Postal Service




                                               6
Civil Service Retirement System                                         CI-MA-10-001
 Overpayment by the Postal Service



Mr. Chairman and members of the Committee, I appreciate the opportunity to submit my

written testimony concerning the overcharge of the United States Postal Service (Postal

Service) for its Civil Service Retirement System (CSRS) obligations. This issue has a

significant impact on the Postal Service’s financial viability, its compliance with the

Postal Accountability and Enhancement Act (PAEA), and thus its ability to provide

world-class universal service to the nation.


On July 1, 1971 the United States Post Office Department (POD), then an agency of the

federal government, became the Postal Service, a new self-financing independent

government entity. Although the Postal Service is self-financing, it is subject to the

Office of Personnel Management (OPM) for health care and pension obligations. The

administration of these programs resulted in the Postal Service being overcharged four

separate times.



Congress has continually untangled and corrected funding problems:

      In 2002, it was discovered that the Postal Service’s pension fund would be

       overfunded by $78 billion. Congress corrected this in 2003.

      In 2003, the Postal Service was made responsible for $27 billion in military

       service pension obligations for Postal Service employees. Congress corrected

       this in 2006.

      In 2009, we found that the OPM used an exaggerated 7 percent health care

       inflation forecast instead of the 5 percent industry standard, resulting in an




                                               7
Civil Service Retirement System                                         CI-MA-10-001
 Overpayment by the Postal Service



       overpayment of $13.2 billion by 2016. In response Congress urged the Postal

       Service to coordinate with the OPM and the Office of Management and Budget to

       develop “a fiscally responsible legislative proposal.”


Lastly, the Postal Service pension fund was overcharged $75 billion, so that employees

could retire at promised levels. When the POD became the Postal Service, employees

that belonged to the federal pension fund now contributed to the Postal Service.

Retirement costs were divided according to the number of years employees had

belonged to each fund. However, the federal pension fund paid for retirements based on

1971 salaries, not final salaries. The federal pension fund collected full contributions,

but paid only partial benefits.



The OPM has explained that these mischarges were in response to what they believed

to be the will of Congress expressed in 1974 legislation. However, the 1974 language

was repealed by Congress in 2003, when large overpayments were discovered. At that

time the OPM inexplicably had not detected a 41 percent overfunding error in this $190

billion pension fund. Congress directed the OPM to use its authority to oversee the

reforms using accepted “dynamic assumptions” that include pay increases and inflation.

The OPM switched to dynamic funding for the Postal Service portion, but did not for

their share. The Postal Service was forced to pay the $75 billion difference.


In 2009 my office began working with the Hay Group, an actuarial firm, to review the

OPM’s CSRS methodology and found that it unfairly burdens the Postal Service:




                                             8
Civil Service Retirement System                                                CI-MA-10-001
 Overpayment by the Postal Service



       In calculating the federal government’s share, the OPM methodology assumes

        that all salary inflation after 1971 should be paid by the Postal Service instead of

        being divided with the federal pension fund and associated with the respective

        years of service. This has caused the Postal Service to be overcharged $75

        billion for its share of the CSRS pension payments. In essence, for almost 40

        years the Postal Service paid all of its and all of the federal government’s share

        of inflationary costs.

       It is instructive that the OPM in this case ignores its own formula which includes

        final salary and inflationary adjustments for federal and military funds to

        determine Postal Service pension benefits.

       The OPM methodology of calculating the federal fund’s share was constructed

        using a “freeze frame”3 approach which allows the federal government to escape

        the effect of salary increases mostly due to inflation and the growth of the

        economy on pension costs in violation of accepted accounting practices. It is

        completely unrealistic to assume employees would receive no pay adjustments

        for almost a 40-year period, yet the OPM uses just such a methodology in paying

        its share for former POD employees. This does not comply with the use of

        dynamic assumptions that the OPM was directed to use in 2003.

       Using the OPM methodology, an employee who worked 15 years for the POD

        and 15 years for the Postal Service causes the Postal Service to be responsible


3
 To assume former Post Office Department employees retired in 1971 and received no inflationary salary
adjustments or the use of a final salary.




                                                  9
Civil Service Retirement System                                      CI-MA-10-001
 Overpayment by the Postal Service



       for 70 percent of the pension obligation, while the federal funds share would be

       30 percent, instead of an even division.

      In 2004 the Postal Service appealed the OPM’s methodology and it was denied

       by OPM. Their denial relied on repealed 1974 legislation that made the Postal

       Service responsible for the pension costs of salary increases. The new legislation

       in 2003 directed the OPM to abandon the 1974 legislation and use “dynamic

       assumptions” that include inflation and pay increases. This is the same

       methodology the OPM uses with its other funds including the cost of retiree

       health care premiums for the Postal Service.

      A methodology based on dynamic assumptions — the same methodology the

       OPM uses to split the cost of retiree health care premiums between the Postal

       Service and the federal government — would comply with accepted accounting

       standards. That proposal would finally align the pension and health care

       methodologies for the OPM.

      Using dynamic assumptions, the federal government and the Postal Service

       would each be responsible for 50 percent of the pension obligations for an

       employee who worked half their career for the federal government and half for

       the Postal Service. The current methodology relies on the Postal Service to pay

       all of its pension obligations and much of the federal government’s share.

Lastly the Postal Service was given a funding target of 100 percent for both pension and

health care pre-funding. In contrast the OPM has pension funding premium levels of 41

percent for federal employees and 24 percent for the military. The OPM’s own health



                                            10
Civil Service Retirement System                                         CI-MA-10-001
 Overpayment by the Postal Service



care prefunding for federal employees is 0 percent. The Standard & Poor’s 500

companies’ (S&P 500) pension funding is 80 percent.



Correcting either the overcharge or the target pre-funding level would result in the ability

to pay off the Treasury debt associated with meeting the overcharges. Annual costs and

premiums could be financed out of the interest earnings and surplus. PAEA has a

provision to monitor fund levels annually to determine if contributions are adequate to

meet target levels.



The vision of the Postal Service in the PAEA was to create a more corporate entity

subject to efficient market forces. That cannot be done if the Postal Service continues to

be subjected to annual payments of more than $7 billion a year before it enters the

market place. Mr. Chairman, I would be hard pressed to name a corporation that could

do well in the market place if $7 billion a year were taken from it before it could open its

doors for business. The current overcharges of $75 billion have been seen by many in

the mailing industry as an unauthorized tax on Americans. Ironically the postal trade

press has termed this the “stamp tax.”



The mischarges should be backed out and fund balances reset to proper levels to

achieve the retirement reforms Congress enacted in 2003. In addition, another option

for the Postal Service could be to use the $75 billion to pledge to the retiree health fund

instead of making payments. The details concerning the 3 possible solutions can be

found in the appendix.



                                             11
Civil Service Retirement System                                          CI-MA-10-001
 Overpayment by the Postal Service




Timely action by Congress and the OPM will provide the Postal Service immediate relief

from this financial burden, but it will not wholly close the financial gap. Almost $4 billion

will remain to be dealt with by the Postal Service through the reduction of 93 million

workhours in FY 2010. Based on the latest projections, the Postal Service is on pace to

cut the necessary workhours as they try to meet the loss.




                                              12
Civil Service Retirement System                                         CI-MA-10-001
 Overpayment by the Postal Service




My office would like to elaborate on three alternative solutions to correct the excessive

pre-funding levels. Our first solution is designed to correct the OPM’s current CSRS

pension funding methodology that has overcharged the Postal Service $75 billion from

1972 to 2009. This can be simply fixed by taking the following steps:

      First, the Postal Service’s CSRS pension obligations should be calculated using

       a years-of-service methodology to allow for the return of the $75 billion the Postal

       Service has already overpaid and going forward.

      Second, $10 billion of the $75 billion CSRS surplus should be used to pay off the

       Postal Service’s Treasury debt, since this debt was incurred making payments to

       pre-fund retiree health care. This would save the Postal Service over $150 million

       a year in debt service.

      Third, another $10 billion of the CSRS surplus should be used to pay the total

       outstanding CSRS pension liabilities, which have increased over its life.

      Fourth, transfer the remaining $55 billion of the CSRS surplus to the retiree

       health care fund. The $55 billion combined with the already set aside $35 billion

       will provide a retiree health care fund of $90 billion. The OPM has determined

       that $87 billion is needed to fully fund the Postal Service’s retiree health care

       liability as of 2009. In addition, under the PAEA any CSRS pension surplus is

       already scheduled to be transferred to the retiree health care fund at the end of

       2015. We propose that the schedule be accelerated so that the transfer occurs

       immediately.




                                             13
Civil Service Retirement System                                          CI-MA-10-001
 Overpayment by the Postal Service



        Fifth, stop the required payments of more than $5 billion under the PAEA

         because the account would be funded. This would allow the Postal Service to

         use the fund for its intended purpose to pay this year’s $2 billion retiree premium.

        Most of these simple changes only advance the timing of provisions already in

         existing law and do not fundamentally alter the funding structure established by

         the PAEA. The Postal Service’s pension and retiree health care obligations

         would be determined with the same methodology. The Postal Service’s pension

         and retiree health care obligations would be fully funded; unlike the federal

         government that relies on federal pension funding of 41 percent, military pension

         funding of 24 percent, federal retiree health benefits at 0 percent and military

         retiree health benefits at 29 percent.


As I said before, there is no established funding goal. An established goal by Congress

of around 80 percent as suggested by the S&P 500 and my office would allow for a

second solution to the $75 billion overcharge to the Postal Service for its share of the

CSRS pension payments from 1972 to 2009. This solution would be optimal if the $75

billion could not be repaid to the Postal Service. This solution would consist of four

parts:

        First, the Postal Service’s pension fund obligation would be reduced from 100

         percent to about 80 percent. This would make about $52 billion available to the

         Postal Service.

        Second, $10 billion of the $52 billion should be used to pay off the Postal

         Service’s Treasury debt, since this debt was incurred making payments to




                                                  14
Civil Service Retirement System                                        CI-MA-10-001
 Overpayment by the Postal Service



       prefund retiree health care. This would save the Postal Service over $150 million

       a year in debt service.

      Third, transfer the remaining $42 billion to the retiree health care fund to achieve

       more than an 80 percent funding level.

      Fourth, stop the required payments of more than $5 billion under the PAEA

       because retiree health care would be funded. This would allow the Postal Service

       to finally use the funds and its interest income for its intended purpose — paying

       for retiree health care.


The third solution could be used once the OPM acknowledges the Postal Service’s $75

billion overpayment to the CSRS pension fund. This overpayment should not be

incorrectly categorized as a “surplus,” as the Postal Service is immediately entitled to

this overpayment. The surplus CSRS funds, on the other hand, are due to the Postal

Service on September 30, 2015, and will be comprised of any excess funds that exist

once the CSRS pension is fully funded.


An OPM acknowledged $75 billion overpayment becomes an asset of the Postal

Service which allows the Postal Service to pledge the excess retiree pension funding to

the retiree health fund instead of making payments. The Postal Service can acquire this

asset to pledge through the Treasury’s issuance of a bond on behalf of the OPM that is

payable to the Postal Service. A special Treasury bond, without market value, issued to

the Postal Service would allow the Postal Service to pledge this bond (asset), pursuant




                                             15
Civil Service Retirement System                                                         CI-MA-10-001
 Overpayment by the Postal Service



to 39 C.F.R. § 2005(b) (1) to satisfy its retiree health fund obligations.4 Under 39 USC

2005(b),

        “The Postal Service may pledge the assets of the Postal Service and pledge or

        use its revenues and receipts for the payment of the principal of or interest on

        obligations issued by the Postal Service under this section, for the purchase or

        redemption thereof, and for other purposes incidental thereto, including creation

        of reserve, sinking and other funds which may be similarly pledged and used, to

        such extent and in such manner as it deems necessary or desirable….”



The $75 billion Treasury bond, at some undetermined time in the future, would result in

a transfer of actual funds to the retiree health fund obligations. This transfer could be

coordinated with the PAEA mandated 2015 transfer of funds between the retiree

pension fund and the retiree health fund.




4
 The issuance of an interagency debt instrument is exemplified by the arrangement between the Social Security
Administration (SSA) and the Treasury.
       The surplus SSA tax revenues are maintained in a SSA Trust Fund which, like the Postal Service Fund, is
        an off-budget fund.
       Because the Treasury had spent SSA’s tax-generated revenues, it has since provided SSA with $2.5 trillion
        in special-issue Treasury bonds that SSA may redeem, as necessary, when its annual tax revenues no
        longer cover its disbursements.
       This fiscal year, SSA will begin redeeming some of its Treasury bonds.




                                                        16
   Civil Service Retirement System                                                                          CI-MA-10-001
    Overpayment by the Postal Service


                                              APPENDIX C: MONETARY IMPACT



                                 Monetary Impact of Returning $75 billion to the Postal Service

($ Millions)                                         FY 2010      FY 2011      FY 2012 FY 2013 FY 2014 FY 2015 FY 2016
PAEA Required Pre-Funding Payments
Eliminated                                             $5,500         $5,500    $5,600   $5,600    $5,700      $5,700       $5,800
Current Retiree Health Benefit Premium
Payments Eliminated                                     2,300          2,600     2,900    3,300     3,600       4,000        4,500
Total Payments Eliminated                              $7,800         $8,100    $8,500   $8,900    $9,300      $9,700      $10,300

Savings Discounted at Postal Service Cost of
Borrowing (3.875%)                                     $7,800         $7,798    $7,878   $7,941    $7,988      $8,021       $8,199

Net Present Value of Savings                          $55,624
Net Present Value of Savings, OIG Project
09RO013ESS000                                          (5,816)
Net Monetary Impact                                   $49,808

   The net present value of the expected future savings, which would result from crediting to Postal Service $75 billion in
   CSRS pension fund overpayments, is $55.624 billion. OIG is claiming $49.808 billion in monetary impact for this
   project. The difference between these two numbers is $5.816 billion, which is the amount we had already claimed in
   FY 2009 (Project Number 09RO013ESS000), for the period 2010-2019, for essentially the same subject matter. The
   OIG subtracted this amount from the savings calculation for this current project in order to avoid double-counting
   monetary impact claims.




                                                                 17
Civil Service Retirement System                                                       CI-MA-10-001
 Overpayment by the Postal Service


                                       APPENDIX D: ANALYSIS OF INTEREST EARNED

                                     Postal Service Retiree Health Benefits Fund (PSRHBF)
                                          Interest Earned and Payments 2010 – 2016


    ($ Millions)                       FY 2010     FY 2011    FY 2012      FY 2013    FY 2014        FY 2015   FY 2016
    PSRHBF Balance                       $90,000   $91,750    $93,279      $94,576    $95,532        $96,231    $96,562
    PSRHBF Interest
    Earned at 4.5 Percent                  4,050      4,129        4,198      4,256      4,299         4,330      4,345
    PSRHBF Payment                         2,300      2,600        2,900      3,300      3,600         4,000      4,500
    PSRHBF Net Change                    $91,750   $93,279    $94,576      $95,532    $96,231        $96,562    $96,407


   FY 2010 fund balance at $90 billion supposes an additional $55 billion is added to the current fund balance of $35
   billion.

   Interest rate of 4.5 percent is based on the 2009 rate and assumes no increase in interest rates.

   Payments are funded by interest income until FY 2016 when the premium exceeds interest earned by
   approximately $155 million. This could be paid by using fund principal or as a Postal Service supplement.

   The premium payment is based on current projection without any change. The premium payment projection is
   recomputed each year.




                                                              18
Civil Service Retirement System                              CI-MA-10-001
 Overpayment by the Postal Service




                         APPENDIX E: MANAGEMENT’S COMMENTS




                                       19
